         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Quick Reaction Report




       Results of Technical Network
       Vulnerability Assessment:
       EPA’s Andrew W. Breidenbach
       Environmental Research Center
       Report No. 10-P-0210

       September 7, 2010
Report Contributors:   Rudolph M. Brevard
                       Charles Dade
                       Cheryl Reid
                       Michael Goode, Jr.
                       Vincent Campbell
                       U.S. Environmental Protection Agency 	                                              10-P-0210
                                                                                                    September 7, 2010
                       Office of Inspector General


                       At a Glance
                                                                           Catalyst for Improving the Environment


Why We Did This Review           Results of Technical Network Vulnerability
As part of the annual audit of
                                 Assessment: EPA’s Andrew W. Breidenbach
the U.S. Environmental           Environmental Research Center
Protection Agency’s (EPA’s)
compliance with the Federal       What We Found
Information Security
Management Act, the Office       Vulnerability testing of EPA’s Andrew W. Breidenbach Environmental Research
of Inspector General (OIG)       Center network conducted in June 2010 identified Internet Protocol addresses with
conducted network                numerous high-risk and medium-risk vulnerabilities. The OIG met with EPA
vulnerability testing of the     information security personnel to discuss the findings. If not resolved, these
Agency’s network devices in      vulnerabilities could expose EPA’s assets to unauthorized access and potentially
EPA’s Andrew W.                  harm the Agency’s network.
Breidenbach Environmental
Research Center building
located in Cincinnati, Ohio.      What We Recommend

Background                       We recommend that the Senior Information Official, Office of Research and
                                 Development; Director, Enterprise Desktop Solutions Division, Office of
Network vulnerability testing    Environmental Information; and Director, Information Resources Management
was conducted to identify any    Division – Cincinnati, Office of Administration and Resources Management:
network risk vulnerabilities
and to present the results to    •	 Provide the OIG a status update for all identified high-risk and medium-risk
the appropriate EPA officials,      vulnerability findings contained in this report.
who can then promptly            •	 Create plans of action and milestones in the Agency’s Automated Security
remediate or document               Self-Evaluation and Remediation Tracking system for all vulnerabilities that
planned actions to resolve the      cannot be corrected within 30 days of this report.
vulnerability.                   •	 Perform a technical vulnerability assessment test of assigned network
                                    resources within 60 days to confirm completion of remediation activities.

For further information,         Due to the sensitive nature of the report’s technical findings, the attachments are
contact our Office of            not available to the public.
Congressional, Public Affairs
and Management at
(202) 566-2391.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2010/
20100907-10-P-0210.pdf
                          UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                       WASHINGTON, D.C. 20460


                                                                                              THE INSPECTOR GENERAL




                                               September 7, 2010

MEMORANDUM

SUBJECT:	                  Results of Technical Network Vulnerability Assessment:
                           EPA’s Andrew W. Breidenbach Environmental Research Center
                           Report No. 10-P-0210


FROM:                      Arthur A. Elkins, Jr.
                           Inspector General

TO:	                       Jack Puzak
                           Senior Information Official, Office of Research and Development

                           Johnny Davis, Jr.
                           Director, Enterprise Desktop Solutions Division
                           Office of Environmental Information

                           Aundair Kinney
                           Director, Information Resources Management Division – Cincinnati
                           Office of Administration and Resources Management


Attached is the final technical network vulnerability assessment report prepared by the Office of
Inspector General (OIG) of the U.S. Environmental Protection Agency (EPA).1. The site
assessment was conducted in conjunction with the Fiscal Year 2010 Federal Information
Security Management Act audit. Vulnerability testing of EPA’s Andrew W. Breidenbach
Environmental Research Center network conducted in June 2010 identified Internet Protocol
addresses with numerous high-risk and medium-risk vulnerabilities.

We performed this audit from May through August 2010 at EPA’s Andrew W. Breidenbach
Environmental Research Center building in Cincinnati, Ohio. We performed this audit in
accordance with generally accepted government auditing standards. These standards require that
we plan and perform the audit to obtain sufficient and appropriate evidence to provide a


1
 A vulnerability assessment is the process of identifying, quantifying, and prioritizing (or ranking) the
vulnerabilities in a tested information system. A vulnerability assessment does not include a penetration test which
would attempt to use the identified vulnerabilities to gain further access into the tested information system.


                                                          1

                                                                                         10-P-0210 



reasonable basis for our findings and conclusions based on the audit objectives. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions.

We conducted testing to identify the existence of commonly known vulnerabilities using a
commercially available network vulnerability assessment tool recognized by the National
Institute of Standards and Technology. We tested all Internet Protocol addresses provided by
Agency representatives and identified as being associated with network resources controlled by
your offices. We used the risk ratings provided by the vulnerability software to determine the
level of harm a vulnerability could cause to a network resource. We accepted the results from
the software tool. The vulnerabilities identified by the software are disclosed in the attachments.
The estimated cost for performing this test and compiling this report is $11,084.

Recommendations

We recommend that the Senior Information Official, Office of Research and Development;
Director, Enterprise Desktop Solutions Division, Office of Environmental Information; and
Director, Information Resources Management Division – Cincinnati, Office of Administration
and Resources Management:

   1.	 Provide the OIG a status update for all identified high-risk and medium-risk vulnerability
       findings contained in this report.

   2.	 Create plans of action and milestones in the Agency’s Automated Security Self-

       Evaluation and Remediation Tracking system for all vulnerabilities that cannot be 

       corrected within 30 days of this report. 


   3.	 Perform a technical vulnerability assessment test of assigned network resources within
       60 days to confirm completion of remediation activities.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 30 calendar days. You should include a corrective actions plan for agreed-upon
actions, including milestone dates.

Due to the sensitive nature of the report’s technical findings, the full report will not be made
available to the public. However, the OIG plans to publish the unrestricted version of this report,
your response, and any corrective action plans on OIG’s Website, which is available to the
public. Therefore, we request that you provide your response to Recommendation 1 in a separate
document.

If you or your staff have any questions regarding this report, please contact Rudy Brevard at
(202) 566-0893 or brevard.rudy@epa.gov.




                                                 2

                                                                                                                                           10-P-0210



                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                                 POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                               BENEFITS (in $000s)

                                                                                                                     Planned
    Rec.    Page                                                                                                    Completion   Claimed    Agreed To
    No.      No.                          Subject                          Status1         Action Official             Date      Amount      Amount

     1        2     Provide the OIG a status update for all identified       U       Senior Information Official,
                    high-risk and medium-risk vulnerability findings                  Office of Research and
                    contained in this report.                                              Development;
                                                                                     Director, Enterprise Desktop
                                                                                          Solutions Division,
                                                                                       Office of Environmental
                                                                                              Information;
                                                                                                  and
                                                                                         Director, Information
                                                                                       Resources Management
                                                                                         Division – Cincinnati,
                                                                                     Office of Administration and
                                                                                       Resources Management
     2        2     Create plans of action and milestones in the             U       Senior Information Official,
                    Agency’s Automated Security Self-Evaluation and                   Office of Research and
                    Remediation Tracking system for all vulnerabilities                    Development;
                    that cannot be corrected within 30 days of this                  Director, Enterprise Desktop
                    report.                                                               Solutions Division,
                                                                                       Office of Environmental
                                                                                              Information;
                                                                                                  and
                                                                                         Director, Information
                                                                                       Resources Management
                                                                                         Division – Cincinnati,
                                                                                     Office of Administration and
                                                                                       Resources Management
     3        2     Perform a technical vulnerability assessment test of     U       Senior Information Official,
                    assigned network resources within 60 days to                      Office of Research and
                    confirm completion of remediation activities.                          Development;
                                                                                     Director, Enterprise Desktop
                                                                                          Solutions Division,
                                                                                       Office of Environmental
                                                                                              Information;
                                                                                                  and
                                                                                         Director, Information
                                                                                      Resources Management
                                                                                         Division – Cincinnati,
                                                                                     Office of Administration and
                                                                                      Resources Management




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                 3

                                                                                      10-P-0210


                                                                                  Appendix A

                                       Distribution

Office of the Administrator
Assistant Administrator for Research and Development
Assistant Administrator for Environmental Information and Chief Information Officer
Assistant Administrator for Administration and Resources Management
Acting Senior Agency Information Security Officer
Acting Director, Technology and Information Security Staff
Senior Information Official, Office of Research and Development
Director, Enterprise Desktop Solutions Division, Office of Environmental Information
Director, Information Resources Management Division – Cincinnati, Office of Administration and
  Resources Management
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Follow-up Coordinator, Office of Environmental Information
Audit Follow-up Coordinator, Office of Research and Development
Audit Follow-up Coordinator, Office of Administration and Resources Management
Inspector General




                                                4

